STATE OF MINNESOTA
OFFICE OF THE ATTORNEY GENERAL

KEITH ELLISON
ATTORNEY GENERAL

SUITE 1100
445 MINNESOTA STREET
ST. PAUL, MN 55101-2128
TELEPHONE: (651) 282-5700

December 10, 2019
Scott S. Harris
Clerk of the Supreme Court of the United States
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

Via E-Filing and U.S. Mail

Kimberly Watso et al. v. Jodi Harpstead, in her official capacity as
Commissioner of the Minnesota Department of Human Services, et al.
Supreme Court of the United States, No. 19-550

Dear Mr. Harris:
I represent Respondent Jodi Harpstead, Commissioner of the Minnesota Department of
Human Services, and write on behalf of all Respondents. Pursuant to Supreme Court Rule 30.4,
Respondents respectfully request a 30-day extension of time to respond to Petitioners’ petition
for writ of certiorari. Because the 30th day following the current deadline of December 27, 2019
is a Sunday, this extension would make responses due on or before Monday, January 27, 2020.
Respondents, who are represented by four separate law offices, are all either government
entities or government officials sued in their official capacity. Especially in light of the
intervening holiday, the current deadline does not allow sufficient time for Respondents to
determine whether to respond jointly or separately, draft and finalize a response or responses,
and timely print and file. Petitioners’ counsel Robert L. Sirianni, Jr. states that Petitioners do not
object to Respondents’ request.
Sincerely,
/s/ Aaron Winter
AARON WINTER
Assistant Attorney General
Atty. Reg. No. 0390914
(651) 757-1453 (Voice)
(651) 282-5832 (Fax)
aaron.winter@ag.state.mn.us
Attorney for Respondent Commissioner
Minnesota Department of Human Services
cc:

Robert L. Sirianni, Jr., Esq.
All counsel for Respondents
Toll Free Line: (800) 657-3787 • Minnesota Relay: (800) 627-3529 • www.ag.state.mn.us
Printed on 30% Postconsumer Material Paper

of

